WAIVER
Supreme Court of the United States
No. 20-1741
Vincent Tang
(Petitioner)

v.

JPMorgan Chase Bank, N.A., et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
13 I am filing this waiver on behalf of all respondents.

ti I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):
Deborah El rignac

Please check the appropriate box:
0 I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
(5 I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature
Date:

06/29/2021

(Type or print) Name Ellen Ross Beller
0 Ms.
0 Mr.

U Mrs.

0 Miss

Firm LeOn Cosgrove LLP

RECEIVED
JUL -8 2021

Address 255 Alhamhra Circles 8th Floor
City & State MiamL FL
Phone (305) 740-1975

Zip 33143
Email ebelfer@leoncosgrove.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc: Thomas Spielbauer, Esq. (thomas@spielbauer.com, thomas.spielbauer@aol.com), Marie! Gent-Ferraro, Esq.
(Marielgerlt-ferraro@piblaw.com), Bryant Delgadillo, Esq. (Bryant.Delgadillo@piblaw.com), Douglas C. Straus, Esq.
(dstraus@buchalter.com), Andrew B. Boese, Esq. (aboese@leoncosgrove.com)

$LEAs
R)

